<html>
<title> - ADRIFT IN NEW REGULATORY BURDENS AND UNCERTAINTY: A REVIEW OF PROPOSED AND POTENTIAL REGULATIONS ON FAMILY FARMERS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
ADRIFT IN NEW REGULATORY BURDENS AND UNCERTAINTY: A REVIEW OF PROPOSED 
              AND POTENTIAL REGULATIONS ON FAMILY FARMERS

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                     AGRICULTURE, ENERGY AND TRADE

                                 OF THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                           NOVEMBER 17, 2011

                               __________

                               [GRAPHIC] [TIFF OMITTED] TONGRESS.#13
                               

            Small Business Committee Document Number 112-045
              Available via the GPO Website: www.fdsys.gov




                  U.S. GOVERNMENT PRINTING OFFICE
72-378                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="caadbaa58aa9bfb9bea2afa6bae4a9a5a7e4">[email&#160;protected]</a>  

                   HOUSE COMMITTEE ON SMALL BUSINESS

                     SAM GRAVES, Missouri, Chairman
                       ROSCOE BARTLETT, Maryland
                           STEVE CHABOT, Ohio
                            STEVE KING, Iowa
                         MIKE COFFMAN, Colorado
                     MICK MULVANEY, South Carolina
                         SCOTT TIPTON, Colorado
                         JEFF LANDRY, Louisiana
                   JAIME HERRERA BEUTLER, Washington
                          ALLEN WEST, Florida
                     RENEE ELLMERS, North Carolina
                          JOE WALSH, Illinois
                       LOU BARLETTA, Pennsylvania
                        RICHARD HANNA, New York
                       ROBERT SCHILLING, Illinois
               NYDIA VELAZQUEZ, New York, Ranking Member
                         KURT SCHRADER, Oregon
                        MARK CRITZ, Pennsylvania
                      JASON ALTMIRE, Pennsylvania
                        YVETTE CLARKE, New York
                          JUDY CHU, California
                     DAVID CICILLINE, Rhode Island
                       CEDRIC RICHMOND, Louisiana
                        JANICE HAHN, California
                         GARY PETERS, Michigan
                          BILL OWENS, New York
                      BILL KEATING, Massachusetts

                      Lori Salley, Staff Director
                    Paul Sass, Deputy Staff Director
                      Barry Pineles, Chief Counsel
                  Michael Day, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                           OPENING STATEMENTS
                                                                   Page
Tipton, Hon. Scott...............................................     1
Critz, Hon. Mark.................................................     3
                               WITNESSES
Philip Nelson, President, Illinois Farm Bureau, Bloomington, IL..     5
Leonard Felix, President, Olathe Spray Service, Inc., Olathe, CO.     6
Ray Vester, Vester Farms, Stuttgart, AR..........................     8
Carl T. Shaffer, President, Pennsylvania Farm Bureau, 
  Mifflinville, PA...............................................    10
                                APPENDIX
Prepared Statements:
    Philip Nelson, President, Illinois Farm Bureau, Bloomington, 
      IL.........................................................    29
    Leonard Felix, President, Olathe Spray Service, Inc., Olathe, 
      CO.........................................................    53
    Ray Vester, Vester Farms, Stuttgart, AR......................    48
    Carl T. Shaffer, President, Pennsylvania Farm Bureau, 
      Mifflinville, PA...........................................    34
Additional Materials for the Record:
    CropLife America Statement for the Record....................    59
    EPA--Wetlands Oceans and Watersheds Letter...................    61
    NCBA Foglesong Full Testimony................................    64
    NRECA Statement for the Record...............................   130
    NSSGA Statement for the Record...............................   134
    PM Letter to House SBC Committee on HR 1633..................   145
    United Fresh Produce Association Statement for the Record....   150


ADRIFT IN NEW REGULATORY BURDENS AND UNCERTAINTY: A REVIEW OF PROPOSED 
              AND POTENTIAL REGULATIONS ON FAMILY FARMERS

                              ----------                              


                      THURSDAY, NOVEMBER 17, 2011

                  House of Representatives,
       Committee on Small Business, Subcommittee on
                             Agriculture, Energy and Trade,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:00 a.m., in Room 
2360, Rayburn House Office Building. Hon. Scott Tipton 
(chairman of the subcommittee) presiding.
    Present: Representatives Tipton, Bartlett, Barletta, 
Schilling, and Critz.
    Chairman Tipton. Good morning, everyone. I would like thank 
you for joining us. The hearing will now come to order.
    I would like to thank all of our witnesses for being here 
today and we certainly look forward to your testimony. And I 
would like to thank everyone for taking time out of their busy 
schedules to join us today. I would like to give a special 
welcome to Mr. Leonard Felix, a constituent of mine and aerial 
applicator out of Olathe, Colorado. So Mr. Felix, I certainly 
welcome you to the Committee and I appreciate you taking the 
time to be here.
    Mr. Felix. Thank you very much.
    Chairman Tipton. Farmers and ranchers and small business 
owners today face a sea of onerous new regulations from the 
federal government. Although our nation's agricultural 
community is expected to continue increasing food production to 
feed a growing world population, the current administration 
continues to contemplate and propose new regulations that would 
place increased burdens on American agriculture and make 
production more costly. With our economy struggling to rebound 
from the downturn, now is not the time to saddle farmers and 
ranchers with higher costs and more onerous regulations that 
are driving them out of business.
    Today we will examine two EPA regulations threatening 
family farms and small businesses, a duplicative pesticide 
permit requirement and potentially tougher air quality 
standards on farm dust. Both of these issues are of serious 
concern to farmers across the nation, including my home state 
of Colorado where agriculture business generates $20 billion in 
economic activity each year and creates more than 100,000 jobs.
    On October 31, 2011, a federal regulation took effect 
expanding permit requirements for pesticide applications. 
However, federal law already regulates the registration, 
labeling, and use of pesticides and provides environmental and 
public health protection. This expanded requirement is 
duplicative and another costly form of red tape that brings 
with it new added environmental protection. The EPA has 
estimated the expanded permit requirement will affect some 
365,000 pesticide users at a total cost of $50 million per 
year, but the real cost to small business could be much 
greater.
    A second regulatory concern we will examine today that 
threatens rural economies is the potential for more stringent 
EPA regulations on farm dust. The EPA is currently in the 
process of revising the National Ambient Air Quality standards 
for particulate matter, including dust. While I am pleased that 
the EPA administrator announced that she does not intend to 
make current standards for coarse particulate matter more 
stringent, the revised rule has not yet been finalized. 
Uncertainty lingers. And there is still no agricultural 
exemption for farm dust in the EPA's standards. In fact, 
producers in Arizona already fall within reach of current dust 
standards and have been forced to change their farming 
practices as a result. If the agency were to adopt more 
stringent standards, many more rural areas would be affected.
    As some of the witnesses here today will testify, dust is 
an unavoidable result of agricultural production and a fact of 
life in rural communities. Planning and harvesting crops and 
driving down dirt roads naturally stirs up dust. The only way 
to prevent this dust is to halt or reduce agricultural 
production and other activities in rural areas. This could be 
devastating to local economies and potentially cause food 
prices to rise.
    Unfortunately, the two federal regulatory concerns 
highlighted today are not the only ones that are creating 
uncertainty and worrying the agricultural community. They are 
part of a wave of onerous, overreaching proposed and potential 
regulations that the current administration is considering, 
leaving family farmers and ranchers adrift in new regulatory 
burdens. With nearly 1 in 10 Americans unemployed and our 
country still struggling to crawl out of this economic 
downturn, it is imperative that we stop the advancement of 
these and other new job-killing government regulations.
    Two of my colleagues on the House Agricultural Committee 
have introduced legislation to bring regulatory relief and 
certainty back to the agricultural sector. Congressman Bob 
Gibbs of Ohio has introduced H.R. 872, the Reducing Regulatory 
Burdens Act, which would eliminate costly and duplicative 
permit requirements for pesticide applications near water. 
Congresswoman Kristy Noem of South Dakota has introduced H.R. 
1633, the Farm Dust Regulation Prevention Act, which would give 
necessary certainty to small business owners in rural America 
that farm dust will not be included in EPA standards. Providing 
greater regulatory certainty and regulatory relief to our 
nation's farmers, ranchers, and rural communities is absolutely 
critical. Creating an environment conducive for economic growth 
will enable farmers to grow crops and assist with getting our 
nation back on the path to future economic prosperity.
    Again, I would like to thank our witnesses for 
participating, and I look forward to their testimonies.
    I now yield to my colleague, Ranking Member Critz, for his 
opening statement.
    Mr. Critz. Thank you, Mr. Chairman. And thank you, 
gentlemen, for being here today.
    In Western Pennsylvania where my district is located, we 
take great pride in the outdoors. From the scenic Mon River to 
the Appalachian Mountains to hunting ruffed grouse in Laurel 
Ridge State Park, fresh air and clean water are an important 
part of what makes Pennsylvania a great place to live. Ensuring 
that all these natural resources remain free of pollutants and 
contaminants is a top priority. As we pursue these aims we must 
be mindful that environmental regulation can impose significant 
costs as well. Too often, however, it has been small firms that 
have been impacted the most by EPA's rules. In fact, companies 
with less than 20 employees spend more than $4,000 annually, 
leaving many hard pressed to make investments in their own 
business. Balancing these costs with the benefits of such 
regulation is essential. The reality is that we need to protect 
the environment without undercutting our nation's main job 
creators, small businesses.
    Today we will examine several regulations that have the 
potential to impose real costs on family farmers and smaller 
agricultural businesses. Perhaps most troubling for small 
businesses are new pesticide requirements under the Clean Water 
Act. Never before in the nearly 40 year history of this Act has 
the government required a permit for such use. Making this all 
the more problematic is that the Federal Insecticide, 
Fungicide, and Rodenticide Act already regulates pesticide. 
Such duplication will not safeguard the environment; it will, 
however, impose new recordkeeping and surveillance 
responsibilities on the more than 300,000 pesticide users.
    We will also look at the potential regulation of farm and 
agricultural dust. Such dust is a regular byproduct of farming 
and has been around as long as farmers have been working the 
land. There are limited signs demonstrating that this dust has 
any effect on health in rural areas. Even though the EPA 
administrator has recently stated that it will not regulate 
farm dust, there is still concern that it may do so in the 
future. This is not an unfounded concern. The truth is that 
opinions can change quickly in Washington, D.C. Given that, I 
believe it is correct to be out front on this issue.
    Finally, I am looking forward to examining an EPA issue 
that could seriously impact farmers in my home state of 
Pennsylvania. This matter, called the Chesapeake Bay Total 
Maximum Day Load or TMDL requirement is part of a strategy to 
protect this watershed. However, it has severe and far-reaching 
consequences for local farmers, including those in my home 
state. This so-called pollution diet will put farmers out of 
business plain and simple. It will effectively remove hundreds 
of thousands of acres of productive farmland. In fact, the EPA 
itself projects that roughly 20 percent of cropland in the 
watershed, or about 600,000 acres, will have to be removed from 
production. Requiring states to enforce this on behalf of the 
EPA takes this too far. We are all for protecting this great 
watershed but not at the cost of putting farms out of business. 
We have been down this path many times before this year, 
whether it is greenhouse gases, coal combustion waste, or the 
issues before us today. The truth is that EPA is no stranger to 
overlooking the concerns of small businesses. Instead of 
neglecting them, the EPA should be conducting meaningful 
outreach to small firms, especially when their regulation 
affects family farms and agricultural businesses.
    During today's hearing we will be able to listen to the 
agricultural community and learn about their views on EPA's 
regulations. Ensuring that the concerns of farmers and their 
rural businesses are heard is important. I hope that the EPA 
will take similar actions to increase its outreach in this 
area. Small farms which constitute more than 90 percent of all 
farms remain at the center of our country's rural economy. With 
direct to consumer sales increasing, small farms are poised to 
grow, providing not just high quality food but also jobs. Given 
such promise, it is important that the federal government does 
not extinguish this potential by imposing unnecessary cost and 
duplicative regulatory burdens on them.
    I want to thank all of the witnesses in advance for 
traveling here today and I look forward to their testimony.
    With that I yield back the balance of my time.
    Chairman Tipton. Thank you, ranking member.
    If Committee members do have an opening statement prepared 
I would ask that they submit it for the record. And I would 
like to take a moment to be able to explain our timing lights 
for you. You will each have five minutes to deliver your 
testimony. The light will start out green. When you have one 
minute remaining it will turn yellow. Finally, it will turn red 
at the end of your five minutes. If you exceed that you will be 
ejected. I am kidding. If you would, try to keep it to that 
time limit and we will try to be lenient so that you can finish 
up. So.

 STATEMENTS OF PHILIP NELSON, PRESIDENT, ILLINOIS FARM BUREAU; 
     LEONARD FELIX, PRESIDENT, OLATHE SPRAY SERVICE, INC., 
  TESTIFYING ON BEHALF OF THE NATIONAL AGRICULTURAL AVIATION 
ASSOCIATION; RAY VESTER, VESTER FARMS, TESTIFYING ON BEHALF OF 
     THE USA RICE FEDERATION; CARL T. SHAFFER, PRESIDENT, 
                    PENNSYLVANIA FARM BUREAU

    Chairman Tipton. I would like to now yield to Congressman 
Schilling to introduce Mr. Nelson.
    Mr. Schilling. Thank you, Chairman.
    Members of the Committee, it is my pleasure to introduce 
Mr. Philip Nelson, who is here to testify on behalf of the 
Illinois Farm Bureau. Mr. Nelson has served as president of the 
Farm Bureau since December of 2003 and prior to that he served 
as a vice president from 1999 to 2003. More importantly, Mr. 
Nelson is a fourth generation grain and livestock farmer from 
Seneca, Illinois, who basically it is a family-run business 
which we like to hear in representing basically farmers from 
all over the United States. I appreciate you traveling all the 
way here during this very busy time in Illinois, especially 
with what is going on with harvest time and all that. So we 
look forward to hearing your testimony and welcome, sir.

                   STATEMENT OF PHILIP NELSON

    Mr. Nelson. Well, Mr. Chairman, members of the Committee, I 
thank you for the opportunity to share our thoughts and 
concerns about the matters that have been outlined.
    I am Philip Nelson. I am a fourth generation farmer from 
Seneca, a real community about 75 miles south and west of 
Chicago. I farm with my wife Carmen, son Kendall, daughter 
Rachel, and we raise corn, soybeans, alfalfa, cattle, and hogs. 
I have been asked to testify about the National Pollutant 
Discharge Elimination System Pesticide General Permit that went 
into effect the first of November and to say a few words about 
the potential of proposed dust regulations on ag. But before I 
do that I would like to point out that we should not even be 
here today testifying about the NPDES Pesticide General Permit 
because it should have never went into effect.
    As you know, the House of Representatives passed H.R. 872 
back in March. I appreciate that several of you voted for that 
bill. And it is regrettable that this bill needlessly spent 
this past spring, summer, and all of the fall languishing in 
the Senate, caught in a stranglehold by a couple of senators 
upset primarily over the Senate Committee jurisdiction, not 
over the substance of the bill. I understand that more than 60 
senators would vote today in favor of H.R. 872 if only given a 
chance. They should be given that chance.
    The Federal Insecticide, Fungicide, Rodenticide Act [FIFRA] 
has covered pesticide labeling and application very effectively 
since 1947. While the new permit process addresses pesticide 
applications in, over, and near waters of the United States, it 
duplicates FIFRA. EPA estimates that this new requirement, as 
was said before, would affect approximately 365,000 pesticide 
applicators nationwide that performed 5.6 million pesticide 
applications annually. It will cost $50 million and require 
over one million hours per year to implement this.
    I do not have to tell you that states like Illinois have 
very limited resources just like the federal government. 
Spending precious resources for this purpose represents neither 
good public policy nor a wise use of taxpayer dollars. 
Furthermore, it does not make our food any safer, our water any 
cleaner, or provide one iota of environmental benefit above and 
beyond what we already achieve on our farms. Frustrated? Yes. 
But what really keeps me lying awake at night is the potential 
of this for more regulatory creep. It is as if we go to bed one 
night with one set of regulations and wake up the next morning 
facing a new set. Every moment that we spend fighting and then 
working to comply with needless, duplicative regulations takes 
away from what we do best, producing food.
    In the case of the new NPDES Pesticide General Permit, we 
have good reason to believe that pesticide regulation could be 
expanded in the future and include other routine applications. 
If we look at history of similar rules that began innocuously 
and later expand exponentially, then past actions give us cause 
for concern about this new permit.
    The last issue I raise is one that perhaps is the most 
troubling and that is that lawsuits that may occur because of 
the Pesticide General Permit. In Illinois, farmers are already 
being sued for discharges at livestock facilities that are 
still being constructed where on livestock is present. It does 
not take much imagination to see how this new permit opens the 
door to new legal challenges that are financially and 
emotionally draining. This permit does not improve food safety, 
does not add any additional environmental protection or benefit 
for society, and does nothing to improve my bottom-line.
    We feel the current regulation of pesticides by FIFRA has 
kept current and is effective to the point we do not need this 
entirely new permit program. H.R. 872 remains relevant and 
Congress needs to complete what 292 members of the House 
supported and likely a strong majority of the Senate would like 
to see approved.
    I would like to further comment on the proposed farm dust 
regulations. As I cut soybeans this fall, I wondered like most 
farmers how in the world would EPA even begin to regulate the 
dust flying off of my combine. How would the agency prevent 
dust from flying when I dump a load of corn or soybeans at the 
local grain elevator? Fortunately, administrator Lisa Jackson 
acknowledged the impracticality of regulating dust and 
announced there will be no dust regulations on agriculture at 
this time. But it is truly amazing that a campaign had to be 
waged to get EPA to finally act. By President Obama's response 
on his bus tour last August to Illinois, and posed a question 
by a fellow Illinois farmer, the administrator's words still do 
not instill tremendous confidence in farmers' minds.
    That is why we support H.R. 1633. I look forward to 
answering your questions. Thank you.
    Chairman Tipton. Thank you, Mr. Nelson.
    Our next witness is Leonard Felix, constituent of mine from 
Olathe, Colorado. Mr. Felix grew up in Olathe on his family's 
fourth generation farm and currently owns and operates Olathe 
Spray Company, a small aerial applicator business in Olathe, 
Colorado. And I would probably be remiss if I did not mention 
that you help grow some--because of your efforts--some of the 
best corn in the United States out of the Olathe area.
    Mr. Felix, it is great to have you here today and we look 
forward to your testimony. Please continue.

                   STATEMENT OF LEONARD FELIX

    Mr. Felix. Chairman Tipton and Committee members, I am 
president of Olathe Spray Service, Inc., Olathe, Colorado. For 
43 seasons I have been providing pest control services to 
farmers, ranchers, state and federal governments. I am 
testifying today on the impacts the EPA's NPDES Pesticide 
General Permit on the early application of pesticides.
    I have a firsthand understanding of the burdens this permit 
will impose on my business, my clients, and other operators. My 
business is like 1,600 other small businesses in 46 states that 
make up the aerial application industry of the United States. 
My business employs 9 full-time persons, including myself and 
two sons, and 6 to 10 seasonal workers. Like most aerial 
applicators, we represent a large and diverse group of clients.
    Uncompahgre Valley Water Users Association has been serving 
more than 175,000 acres of Colorado farmland since its 
construction in 1906. Water collected near the Continental 
Divide delivered down the Gunnison River and then through a 
six-mile tunnel into the South Canal to the Uncompahgre River 
to the canals and to the rich farmland below. The farmers raise 
vegetables, forage and grain crops, orchards, grapes, berries, 
and other specialty crops, all depending totally on this supply 
of water. The herbicides we apply to the many canals and 
ditches control reed canary grass, orchard grass, and noxious 
weeds that would otherwise choke them. We also spray about 
60,000 acres of cropland each year. We help control mosquitoes 
for the Grand Valley pest control district, Orchard City, and 
Cedaredge townships, and Gunnison County. We also treat private 
forest for control of insects that are destroying the forests 
across our west.
    We service about 500 customers yearly. Those clients call 
anytime asking for treatment as soon as possible. With the 
short season in Colorado we have to put in long days, and once 
harvest begins, night applications are often required to 
protect the harvest crews. This pace requires constant 
attention to the maintenance of our aircraft, frequent 
calibration of our equipment, and safety checks. We have become 
experts on pesticide label requirements and state laws. When 
done with a day's flying it all starts over again after we 
complete the required recordkeeping.
    Now we have a new obligation, satisfying the NPDES permit 
requirements by the EPA and states. In 2009 when the Sixth 
Circuit Court of Appeals revoked the EPA's 2006 rule exempting 
pesticide applications to, over, and near waters of the U.S., 
it overturned the congressional intent and required EPA to 
develop NPDES permits requiring hundreds of thousands of 
pesticide users to be in compliance.
    The EPA's general permit was implemented October 31st of 
this year in six states but it also required similar permits in 
Colorado and 43 other states. Colorado's Department of Public 
Health and Environment administers the Colorado permit on 
private property. However, EPA administers a pesticide general 
permit on federal and tribal lands. So we will require 
compliance of both since we do work on all of the above.
    These permits will be a huge challenge. Soon there will be 
enforcement penalties for paperwork and performance violations 
and activists will be able to challenge operators under the 
Clean Water Act citizen suit provision. The cost of defending 
against citizen suit can put us out of business. It is all 
redundant and unnecessary because FIFRA requires the EPA to 
ensure pesticide safety before it is allowed to be registered 
for use.
    When working as a for-hire contractor for public and 
private decision-making clients, EPA has spared applicators 
part of the planning and reporting burdens required of the 
government agencies and other large entities. However, EPA 
considers application participating in the planning of the pest 
control to be decision makers. These applicators will have 
additional responsibility of planning and reporting their 
extensive requirements for documenting maintenance, calibration 
equipment, assessing weather conditions, minimizing spray drift 
and offsite movement, and site monitoring.
    Completing these activities are part and parcel to the 
safety and professionalism of our business. Failure to properly 
update these records could result in penalties up to $37,500 
per incident per day and potential citizen suits. Such records 
do not add anything to environmental protections provided by 
the label of the registered products. They just add cost, time-
consuming burdens, and open the door for those suits.
    So while my sons and I are operating properly applying 
pesticides products for our clients, we must now also worry 
about taking notes for permanent records later that evening. 
Long days and risks are part of being the pilots, but the 
burdens risk of the NPDES are something we just do not need or 
want.
    Do the general permits improve the environment? Not at all. 
Agriculture does not need the added burden. States do not need 
the added expense. And even EPA and the majority of Congress 
have voiced their opposition to the permits. There is a 
solution to this nonsense, enact House H.R. 872. I am informed 
there are 65 or more senators willing to support this 
legislation if it is brought before the Senate, and we can only 
hope there is one additional vote, that of the Senate majority 
leader.
    I thank you, and I will entertain any questions you all 
have.
    Chairman Tipton. Thank you. Next on our panel we have Ray 
Vester, a third generation rice farmer from Stuttgart, 
Arkansas. Mr. Vester is testifying on behalf of the USA Rice 
Federation where he currently serves as chairman of their 
Environmental Regulatory Subcommittee. Thank you for being here 
today, Mr. Vester, and we look forward to your testimony.

                    STATEMENT OF RAY VESTER

    Mr. Vester. Thank you. Mr. Chairman, other members of the 
Subcommittee, I appreciate the opportunity to be here today to 
speak to regulatory issues facing the rice industry and other 
agricultural industry people.
    The USA Rice Federation--I am Ray Vester from Stuttgart, 
Arkansas, the rice--president of the USA Rice Federation 
Environmental Regulatory Subcommittee. The USA Rice Federation 
is a national organization representing rice producers, 
millers, and merchants, and others involved in the rice 
industry. They are an advocate for the production on milling 
and sales of rice here in the United States and also the sale 
of rice around the world.
    The rice industry is an industry which is unique to the 
United States. There are 10 states that produce rice. The six 
leading states are Arkansas, California, Louisiana, Texas, 
Mississippi, and Missouri. Four other states produce rice and 
that is Florida, Tennessee, Kentucky, and Illinois. There are 
about three million acres of rice raised each year in the 
United States and an average of about 9,000 farms that produce 
that rice. It is a $34 billion industry here in the United 
States, creating 128,000 jobs in that industry, many of which 
are rural jobs in small communities around the nation. There 
are 20 billion pounds of rice produced each year, half of which 
is exported, but the other half is consumed here in the United 
States. Pests that affect the rice crop are insects, disease, 
and of course, weeds and grasses, and rice is a crop that is 
grown in the water. It is an aquatic crop.
    I am here today to speak on behalf of the rice industry 
concerning the NPDES permits which we are looking now at since 
November 1 has arrived. The first thing that is obvious when 
you read the permit is that there is education needed in the 
Office of Water in the Department--in U.S. EPA. One of the 
first things you read is that the use of pesticides should be 
done at the lowest amount of pesticides possible delivered in a 
precise way to actively control the pest. That is what farmers 
do each and every day because that is the reason of economy 
savings. Then the next language that comes up states that the 
pesticides are only to be applied as a last resort measure when 
pest conditions can no longer be tolerated. If that approach is 
followed, then the first approach cannot be reached. If you 
wait until the last to control the weeds, then you use more 
pesticides. If you use the pesticides early you use smaller 
amounts. It would be like taking your child to the emergency 
room or to the doctor with a sore throat and the doctor tells 
you, well, he has strep throat and you say, well, you know, he 
is not sick enough to have antibiotics yet. I will take him 
home. And you come back at the end of the week and his throat 
is so sore he cannot speak. He is running a fever. You say, 
well, I still think he is strong enough to survive. And a week 
later you find him in the hospital with an IV with antibiotics 
hoping you save his life. That is the approach the NPDES permit 
takes when it comes to the application of pesticides on rice or 
any other crop.
    Rice is grown in an aquatic situation. In fields with 
established borders, levy borders, to keep either water in or 
out. Water is kept in during the growing season, released 
during the harvest season, and dried. It is not waters of the 
U.S. There are waters pumped into the field there. The permits 
required for any time you apply a pesticide in the waters of 
the U.S. rice we feel is not planted or grown in waters of the 
U.S. It is planted and grown in a flooded situation.
    The permits are supposedly to permit--to prevent pesticides 
being released into the waters of the U.S. when, in fact, a 
permit allows you to release pesticides into the waters of the 
U.S. We are already covered by FIFRA, which as the speakers 
have already said that covers all those situations. It is 
established. Farmers follow those rules and regulations. Aerial 
applicators follow those rules and regulations. And with the 
passage of NPDES permits we have double regulation. We are 
doing the same thing over and over again, costing family farms 
more and more money to accomplish what is needed. The rice 
industry is very much against the passage of this.
    On the dust issue, it is hard to farm without dust. It is a 
natural reaction. If you do not have dust, the ground is too 
wet to work. If you have dust, the ground is ready to be 
prepared for planting. We are challenged and given the 
responsibility to raise crops to feed this nation. And with 
dust regulations that supposedly could be imposed we face a 
very difficult situation. We stand very much opposed to the 
dusty regulations that may affect rice farmers and farming in 
general in the United States.
    I would be happy to answer any questions that you might 
have.
    Chairman Tipton. Thank you, Mr. Vester. Now I would like to 
yield to Mr. Critz to introduce the final witness.
    Mr. Critz. Well, Carl, we are going to actually tag team on 
you today because I did not know until just recently that 
another member of the Committee, Mr. Barletta, you are actually 
his constituent. So I am going to give you a very short 
introduction and then yield to Mr. Barletta to give more of a 
personal introduction.
    But I would like to introduce Carl Shaffer. He is the 
president of the Pennsylvania Farm Bureau. The Pennsylvania 
Farm Bureau is the largest farm organization with a volunteer 
membership of more than 50,000 farm and rural families 
representing farms of every size and commodity across 
Pennsylvania. Mr. Shaffer was just recently re-elected to a 
third term on the American Farm Bureau Federal Board of 
Directors and appointed to a second term as a member of their 
executive committee. And something I just learned that I am 
going to say, Lou, I am not going to let you say it, is that 
among recognitions for leadership and achievements in 
agriculture, Mr. Shaffer was named as a master farmer in 1996, 
which is one of the highest honors awarded to farmers in the 
Commonwealth. Congratulations.
    And I would like to yield to my colleague from 
Pennsylvania, Mr. Barletta.
    Mr. Barletta. Thank you, Mr. Critz. And I would like to 
thank my constituent, Pennsylvania Farm Bureau president, Carl 
Shaffer, for traveling to Washington for this hearing today.
    Mr. Shaffer owns a farm in Mifflinville, which is in 
Columbia County, a county that was badly flooded just very 
recently. Mr. Shaffer has worked hard representing all of the 
farm bureaus across the Commonwealth of Pennsylvania. I look 
forward to continuing to work with the Farm Bureau on important 
legislature in the future, and I appreciate Mr. Shaffer taking 
time out of his busy schedule to share his testimony with us 
here today.
    And I yield back my time and thank you, Mr. Critz.
    Chairman Tipton. Mr. Shaffer, if you would like to 
continue, please.

                  STATEMENT OF CARL T. SHAFFER

    Mr. Shaffer. Thank you, Chairman Tipton, and Ranking Member 
Critz. Thank you very much.
    I really appreciate the opportunity to be before you today. 
As was stated, my name is Carl Shaffer. I am pleased to offer 
this testimony on behalf of the Pennsylvania Farm Bureau and 
the American Farm Bureau Federation. I own and operate a farm 
in Columbia County, Pennsylvania, where I raise green beans for 
processing, corn, and wheat.
    As a small businessman, I struggle to keep up with all the 
laws and regulations that control how a person operates their 
business. Of all the federal regulatory agencies, the one that 
takes the most time and costs me the most in productivity, is 
the EPA. In just the last three years, the EPA has set in 
motion a number of new regulations that will change the face of 
agriculture.
    My written testimony highlights five issues. I will discuss 
two in the short time I have today. One, EPA's burdensome and 
we believe unlawful, micro management of the Chesapeake Bay 
Total Maximum Daily Loads and number two, EPA's proposed 
rulemaking expanding the scope of the waters regulated under 
the Clean Water Act.
    The first issue is occurring right in my backyard. The 
EPA's TMDL for the Chesapeake Bay. All the land I farm is in 
the Bay watershed, and most of the land is within the site of 
the Susquehanna River. Unfortunately, the EPA does not believe 
that economic considerations should be taken into account when 
implicating a TMDL. The overarching problem is that EPA's Bay 
model is fundamentally wrong. The EPA knows that the model has 
significant problems and failed to correct it before they 
finalized the Chesapeake Bay TMDL in December 2010.
    A news article recently reported on the lack of scientific 
credibility and quoted an EPA official dismissing the concerns 
of local and state government saying ``use common sense and let 
us get on with it.'' Another EPA official was quoted as saying 
``none of this stuff should impede the planning for what 
everyone knows is needed to be done.'' Well, common sense would 
tell us that money does not grow on trees. Hard-earned and 
private capital must be applied in a manner to achieve actual 
and proven water quality improvements. Common sense would be 
for EPA to leave the implementation of a TMDL to the states 
where Congress intended.
    A second issue is draft guidance on the Clean Water Act 
jurisdiction. The draft guidance would greatly expand EPA's 
regulatory footprint from the value of the land to restrictions 
on land use. Farms and small business entities will expand 
negative economic consequences. The EPA is changing the rules 
of the game and has indicated they do not need to comply with 
the Regulatory and Flexibility Act and the Small Business 
Regulatory Enforcement Fairness Act. There is no question that 
asserting Clean Water Act jurisdiction will limit the 
activities that farmers, ranchers, and land owners will carry 
out on their land. The EPA already tries to require permits for 
changing from one type of farming to another. The guidance will 
effectively remove the term navigable from the definition of 
waters of the U.S.
    The term and the definition of waters of the United States 
permeates all sections and programs under the Clean Water Act, 
including oil spill prevention and control measures, water 
quality certifications, the just issued pesticide permits, and 
soon to be issued post-construction storm water regulations.
    The economic implications of continued and purposeful 
federal regulatory overreach will be staggering. These costs 
will impact the whole economy and this committee should not be 
surprised when our productivity contracts and jobs are lost to 
foreign competition. I want to thank you for convening this 
hearing, and I will be glad to respond to any questions you 
might have. Thank you.
    Chairman Tipton. Thank you, Mr. Shaffer. I appreciate that. 
It is always kind of interesting when you get the unintended 
consequences, which come from regulation. We all want clean 
air. We all want clean water. And some of the impacts.
    We will start out with questioning. I would like to begin 
actually with Mr. Felix from my home area.
    Aerial application and pesticides play a major role in 
protecting our farmlands, forests, and other invasive species 
in enhancing the production of food and fiber. Mr. Felix, how 
will the expanded NPDES permit requirement impact your ability 
to be able to serve farmers, local governments, and others that 
rely on timely economic applications of pesticides?
    Mr. Felix. Well, I think currently those kind of 
applications represent about 40 percent of our business. With 
the risks that go along with the citizen suit efforts that can 
be done I am really considering not doing those applications 
anymore. So as far as the right-of-way worked on the canals, 
they would not be done timely anymore. I would lose that 
revenue and also would not need as many employees to get that 
work done. And the water users would have to be adding to their 
arsenal of some way of controlling that problem because it is 
not going to work for us.
    As far as the mosquito and the aquatic applications that we 
have done for adult mosquito control and for junk fish in the 
DOW waters around there, again, probably would not be able to 
make those applications anymore. So how they would accomplish, 
that I do not know, but it is going to put such a strain on my 
business I do not think I would be able to accomplish those 
anymore.
    Chairman Tipton. So simply from proposed regulatory 
requirements you are considering just not doing it anymore? 
Just simply cannot afford to do it. Is there going to be 
collateral damage to the community at that point, the farm and 
ranch community?
    Mr. Felix. Yes, I think so, especially on the irrigation 
projects and the communities that we would cease to do mosquito 
applications for.
    Chairman Tipton. How will these new regulations--do you see 
them impacting or having some good impacts in regard to 
environmental or public health in terms of expanding 
protections?
    Mr. Felix. Congressman, we have been doing this work for 
years and years and the EPA has regulated those products that 
we use to the point that we are using safer and more 
appropriate products all the time. And we see no adverse 
environmental effects from what we are doing so it is not going 
to change anything. It is just going to make compliance more 
difficult and more risky for us to be involved in business.
    Chairman Tipton. Thank you. Next question perhaps we can 
have Mr. Nelson and Mr. Shaffer from our two Farm Bureaus maybe 
address this issue. EPA administrator Lisa Jackson has proposed 
retaining the current standard for coarse particulate matter. 
However, there is no agricultural exemption for farm dust. This 
uncertainty still lingers throughout the farming community. Mr. 
Shaffer and Mr. Nelson, in previous years when the EPA has 
revised air quality standards for the Clean Air Act, has the 
agency's final rule always reflected what the EPA initially 
proposed concerning farm dust? Mr. Shaffer.
    Mr. Shaffer. You know, I think it is very easy to look at 
recent history regarding the EPA. An environmental organization 
will file a lawsuit against them. And instead of defending 
themselves in a court they will settle, and thus promulgate a 
new regulation. We have seen this time and time again. And I 
think that is the danger of this, that is the way a new 
regulation is being developed, unfortunately. My feeling is it 
is the obligation of Congress to develop regulations where it 
can be brought out in the open, debated, and come with some 
common sense reasonable regulation, but instead it is almost 
like the EPA is encouraging somebody to sue them so they can 
settle and just develop a new regulation upon agriculture.
    Chairman Tipton. Mr. Nelson.
    Mr. Nelson. A couple of concerns that I have, and Carl 
alluded to one of them, I think the intent in Congress when you 
look at the Clean Air Act is one thing and I think what EPA is 
proposing is another. And I guess I am very concerned where we 
have farmers in certain parts of this country right now that 
cannot even comply with the particulate matter that they are 
proposing.
    As I said in my testimony, when we harvested this fall and 
you see a natural cause happen when you are harvesting a crop 
that is ripened, you know, farmers have no control over that. 
And I think what irritates farmers the most is getting back to 
a comment that was made earlier, there just needs to be some 
common sense put into this equation as we talk about this. But 
in response to your question, I think I am very concerned that, 
you know, EPA keeps proposing these and keeps handcuffing 
farmers across this country, not just in Illinois, with their 
proposed rules.
    Chairman Tipton. I believe that is an important issue, Mr. 
Nelson. I appreciate you bringing that up because we are seeing 
some activist groups now encouraging expansion of the 
particulate matter out into the western states to where when 
the wind blows--I know in my part of the country and I know Mr. 
Felix can speak to this as well, we have half of Arizona 
airborne over us every spring just in terms of the dust coming 
in. So that certainly does be able to create some challenges 
for us. I appreciate you bringing that up.
    Small business owners raise concerns that the EPA and its 
rulemaking in terms of clarifying waters in the U.S. is not 
adhering to mandatory requirements of the Regulatory 
Flexibility Act and the Small Business Regulatory Enforcement 
Fairness Act as well. The Farm Bureau Federation and other 
groups wrote to the EPA to express their concerns on this 
matter and we would like to be able to submit that in today's 
hearing record as well.
    Given the significant and potentially devastating effect of 
this rule on small businesses, it is critical that the EPA 
ensure small businesses have a fair and meaningful opportunity 
to participate in the federal rulemaking that the agency 
completes all of the necessary costs benefits analysis. What 
are some of the costs you see coming out of some of these 
rulings--potential rulings for EPA dust control?
    Mr. Nelson. The first thing that comes to my mind is how 
are you going to comply? In harvesting, I think you are very 
limited in what you can do to try to meet that requirement. I 
look to my colleagues in California that might have a lot of 
fresh produce, that they drive down a dirt road. They are out 
of compliance under the proposed rules that they are pushing 
forward. So I think the compliance issue is one thing that 
rises to the top of every businessperson involved in 
agriculture in trying to comply with it.
    Chairman Tipton. Mr. Shaffer, do you have any comments?
    Mr. Shaffer. I would just echo that. But just for instance 
in Pennsylvania, we have a large amount of dairy farmers for 
instance and they depend on making hay for cattle feed. Well, 
you cannot bale hay and put it away wet, or you are going to 
have spontaneous combustion. So just by the definition of it 
you have to let hay dry. Thus, when you go to bale it you are 
creating dust. So honestly, you know, as I said in my 
testimony, it is laughable when they say use common sense. 
Well, this is common sense and to try to regulate particulate 
matter over dust and things like that, that is not common 
sense.
    Chairman Tipton. Yeah. The uncertainty is certainly a 
question.
    Mr. Felix, could you maybe address, has it been your 
experience in terms of applying pesticides that you will wake 
up one morning and you have new labeling that you may not have 
been made aware of that can put you out of compliance?
    Mr. Felix. Certainly. This happens quite frequently. As a 
product comes down the pipeline to us and the label changes 
come, we are not notified of it. The only responsibility we 
have is reading that label as we get it. And we have lost uses 
in the middle of the season. For instance, I was applying a 
product to spinach and there was a complaint made to the 
Department of Agriculture and they came in to do the 
investigation. I went out and got a label off the new products 
and spinach was not on the label, but the material we carried 
over for the winter it was. And so these kinds of things are 
going on all the time on a daily basis and that is why in my 
testimony I mention we become experts on the label and the 
proper use of the products in compliance with that label and 
that was one lesson almost learned the hard way.
    Chairman Tipton. Thank you. Just a couple more questions 
and then we can get our other members involved here as well.
    Mr. Vester, due to the uncertainty of the process to obtain 
a general permit have you started to consider changes that you 
will need to make in order to comply with new permitting 
requirements?
    Mr. Vester. Well, once again we are dealing with U.S. EPA. 
Most of our farmers have no clue this is there. They receive no 
notification from anybody. If they read the National Register 
every morning they might discover that there has been a new 
rule. We have spent a great deal of time on SPCC [Spill 
Prevention Controlling Countermeasures], and we were finally 
able to obtain an extension on implementation of that 
regulation. EPA has promised. We debated that for five years 
with EPA. A plan came out with a plan which we had agreed to 
with a promised five-year implementation and then all of a 
sudden it changed to one year. It was promised education to 
know what to do. That was never done. Most farmers even today 
when they got the extension did not know what they got the 
extension for. There is very little information that comes from 
the EPA. It is assumed that we know everything they do. It is 
difficult to do.
    We, in the rice industry, consider and debate the fact that 
we should be exempt because our water issues on the production 
of rice is return flow irrigation water and storm water runoff. 
Those two are exempt by law in the Clean Water Act. Period. But 
EPA is trying to circumvent that by the fact of writing 
regulations that bring on environmentalist lawsuits. That is 
the way they regulate now, judicially, not legislatively. And 
that is what we face each and every day. And the NPDS permit, 
as I said earlier, they tell you to use as little chemicals as 
possible with no set amount which opens that to lawsuit trying 
to establish what amount. Then they say that you can only use 
it as a last resort. So who decides what is last resort? And 
last resort does not work.
    You know, we are dealing with an agency that writes rules 
for what we do and they do not know what we do. They do not 
know how we do it. They just know that there ought to be rules 
for it. We have people who have spent their entire life on 
concrete trying to tell farmers how they should run and operate 
their business, how they should plant crops, how they should 
grow crops. The U.S. farmer produces the most abundant, the 
safest, cheapest supply of food to the American public and we 
get beat over the head every year because we are not doing it 
right. You know, I do not know what our answer is. You know, 
how do you not spray a pesticide on your rice to take care of 
insects, disease, and grasses and weeds when it is an aquatic 
crop? Now, the water seldom ever leaves that farm because in 
our state most of the water is retrieved, placed in reservoirs, 
and reused.
    In the 1980s, EPA did a study in Western Tennessee on rice 
fields where water was put in and where it came out. And the 
results of that study were the fact that the rice was cleaner 
coming out of the rice field than when it was put in, whether 
it was service water or well water because of the marsh-type 
atmosphere of a rice field. But that study was never released. 
It was never made public because it did not give the results 
they wanted. Water coming out of a rice field is safer and 
cleaner than the water going in because of its marsh-type 
atmosphere. It is a daily battle with EPA for us. And we have 
continuing regulation that, you know, what is our answer? I do 
not really know.
    Chairman Tipton. Thank you, Mr. Vester. I appreciate that.
    I would now like to yield to Ranking Member Critz for his 
questions.
    Mr. Critz. Thank you, Mr. Chairman. And because of our 
testimony and the questions you have answered, I had a whole 
slew of questions I wanted to ask but you have given me a whole 
slew of new ones that I want to ask because obviously part of 
the process here is for us to learn more about what is going on 
so that we can make educated decisions, but also to make sure 
that anyone who is listening and that the testimony goes around 
so that other members of Congress can learn as well.
    But because you are my guest, Mr. Shaffer, you get my first 
question, of course. It is a little off the defined topic of 
why we are here today but it is such a big issue in 
Pennsylvania. It is, of course, the Chesapeake Bay discharge 
concerns. And actually, I was showing Carl when I came in that 
Farm Bureau News--American Farm Bureau News has Carl on the 
front testifying before the House Agriculture Subcommittee on 
Conservation, Energy, and Forestry about Chesapeake Bay issues 
that we are having in Pennsylvania.
    So Mr. Shaffer, your testimony talks about the billions 
that could be spent on EPA's Chesapeake Bay TMDL. Does anyone 
know how much this will cost taxpayers and/or businesses?
    Mr. Shaffer. Unfortunately, no. This is the mindboggling 
part of this. EPA is projecting this regulation and they have 
never done an economic analysis or cost-benefit analysis on 
this. Recently, Virginia has come out and they said they are 
estimating that it is going to cost them $7 billion to comply. 
New York has come out with a figure of $6 billion. But the 
bottom-line is there has not been a cost analysis or a cost-
benefit analysis.
    And let me make one other point. We look at the Chesapeake 
Bay and think this is a regional issue but I will tell you 
exactly what EPA has said. This is a pilot project that they 
are going to use throughout the United States. So to all your 
other colleagues across the United States, this is going to be 
an issue they are going to have to deal with as well.
    Mr. Critz. Well, and for those in the audience and in the 
panel, the reason I asked Carl to be here is that he is in Mr. 
Barletta's district and represents farmers and the Chesapeake 
Bay watershed really does not impact my district but because of 
this pilot issue, because of the cost. And when you mention it 
is going to cost New York $6 billion and Virginia $7 billion, 
that is not the state, that is the farmers. Is that correct?
    Mr. Shaffer. No, that is the state. Because this is going 
to go beyond the farms. This is going to go and involve 
communities. It is going to be involving their regional 
planning. It is going to involve their municipal water 
treatment systems. It is going to have very far reaching 
effects beyond the farm. As you indicated earlier, their own 
numbers say that they are going to take--we are going to have 
to take 20 percent of the land out of crop production.
    Mr. Critz. Six hundred thousand acres. That is right. Yeah.
    Mr. Shaffer. Which is unreal. And looking at their model, 
as I indicated, it is faulty. They do not indicate in their 
model that we utilize any best management practices whatsoever 
where we have been doing it for 40 years utilizing best 
management conservation practices.
    Mr. Critz. Thank you. Thank you. And Mr. Felix, you made a 
comment and I am actually going to say something that is 
extremely sarcastic and I think you will get it when I am 
through, is that obviously you have run probably a $20-, $30 
billion dollar business and you have a staff of attorneys that 
go over regulations and things that are coming down. Is that 
true?
    Mr. Felix. No, sir.
    Mr. Critz. No, sir. [Laughter.]
    So you have 20 employees? One hundred employees?
    Mr. Felix. Actually, nine full-time employees. That 
includes mechanics, my two sons and myself, and loaders and 
field scouts. And we provide a turnkey operation. So we go out 
to the farmer and we check the fields, assist them in decision-
making on what kind of applications they need to save them the 
money they need and still put a crop in their storage so that 
they can have something to go from one year to the next, 
whether it is livestock--we do range land, all the farm land 
around there, forestry. I mean, it is a turnkey thing. We also 
do surveillance and game surveys for the DOW with the 
helicopters in the wintertime and provide search and rescue for 
the communities and the counties in the local area, plus fire 
suppression for the sheriff departments in the local areas with 
both aircraft.
    Mr. Critz. Well, good. And the reason I asked my very 
sarcastic question at the beginning is that this label change 
that happens, that comes as a surprise, is that you find you 
have stock that you cannot use for certain items. And what you 
are saying is that there was no notification. It is up to you 
to somehow--to read the Federal Register every day to find out 
what is going on because of the impact. So you end up with 
stock that now has devalued if you have carried something over. 
Is that----
    Mr. Felix. Well, or you have to use it in a different way 
or return it. I mean, sometimes we can do that. But if they 
take a product completely away then you are just stuck with it 
and you have got to pay to have it disposed of with hazmat 
people. And that just happened last year with carbofuran.
    Mr. Critz. I can understand your frustration. That is an 
interesting item that certainly we need to look at that.
    Mr. Vester, you made--you used an example and I want you to 
further clarify this. And you used the strep throat example for 
NPDS permitting.
    Mr. Vester. Right.
    Mr. Critz. Can you go through this again and maybe use a 
different analogy? Because I am trying to figure out--is that 
the NPDS is a--you are saying let us wait until the patient is 
dying before we--well, I will let you explain it because I am 
trying to get it straight in my head.
    Mr. Vester. I understand. In the NPDS draft permit it makes 
a statement that you should use the lowest amount of pesticide 
possible to apply to your crops and apply it specifically so 
there is no drift. We do that regularly because that is the 
plan. When you first see one and two leaf grass you spray to 
kill it. When you first see five to 10 worms every so far in a 
sweep you spray to get rid of them. When sheath blight and 
blast, which are funguses that grow in rice, when you find 10 
stalks in a certain area, you spray. When the least amount of 
disease and insects and weeds are there you spray with a small 
amount of pesticide. But then in the next paragraph or later on 
they say that pesticide should be the last thing you do to 
prevent these pests. That you should wait until it is 
intolerable, I think they say, to apply anything to stop them. 
So if you do that, if you follow that practice----
    Mr. Critz. So that is almost contradictory.
    Mr. Vester. It is contradictory because they do not 
understand. They have written a regulation dealing with 
something they do not know what they are talking about because 
if you wait too long then you use a 2X rate in what we call a 
salvage operation because the weeds are starting to choke the 
rice out they are so big and strong or the worms have eaten 90 
percent of what is there or the fungus has spread so bad it 
destroys the yield and the quality of the rice. And it would be 
like taking a child to the doctor or yourself to the doctor 
with a bad cold and they say you have strep throat and you tell 
them, well, I am strong. I can survive it. And you keep going 
back until you are finally in the hospital and the last resort, 
you take antibiotics. You get an IV because you are dehydrated. 
It is the same ignorance that you would be if you did not 
accept what is needed for you physically for health as if you 
do not do what is needed physically for the health of your 
crop.
    Mr. Critz. So it is almost like preventive medicine? Is 
that----
    Mr. Vester. Well, it----
    Mr. Critz [continuing.] Spend a little upfront to save the 
huge amount down the road. And plus, if you are losing crop, 
you are losing--you are spending more and losing--you are not 
making as much.
    Mr. Vester. When you wake up in the morning with a sinus 
headache and pressure, do you take something to stop it? You 
do. If you do not, what happens? It keeps getting worse and 
worse and finally you may have a sinus infection and you go to 
the doctor. If you walk into your field and you find one and 
two leaf grass, it takes a small amount of herbicide to kill 
that. If you wait till it is five- to six-leaf grass it takes 
an enormous amount of pesticide to kill it. And so on one hand 
they are telling you, you know, do not use a whole lot but wait 
to apply pesticides or herbicides until there is no other 
option. Well, in the first place that is the only option.
    Mr. Critz. So let us take this a step further. So common 
sense. We are going to use common sense. We are going to use 
the reasonable man approach here. Do you spray when you see 
those two blades of grass? Now, what happens with the 
permitting? Does it come back that you get pushback from the 
agency or what--I mean----
    Mr. Vester. We have not, you know, we are starting a new 
year. Okay? We are regulated at the state level because EPA 
directly regulates six or seven states and the rest of the 
states it is delegated to state authority to regulate. In 
Arkansas it is DEQ. So----
    Mr. Critz. Pennsylvania--is DEP Pennsylvania or is it EPA?
    Mr. Shaffer. In Pennsylvania the pesticide rules fall under 
the Department of Agriculture.
    Mr. Vester. And it varies state to state. So we all have 
different rules and the only stipulation that each state has, 
they have to have a rule as stringent or more stringent than 
what the U.S. EPA rule is. You cannot be less stringent. So----
    Mr. Critz. Right. Okay.
    Mr. Vester. Our rule is just now coming out to be known. So 
whether we need to--we have to read that rule for the coming 
year to see if we are going to have to have a permit and what 
establishes that if it is approved what we write in the EPA. 
Now, we have only seen and the State of Arkansas has written 
off the draft regulation because we had to--we had to have the 
state regulation ready by November 1. Well, EPA did not have 
the full regulation ready until November 1. So we had, you 
know, we could not----
    Mr. Critz. Right. You had to use the draft.
    Mr. Vester. We had to use the draft. Well, the draft does 
not look anything like the new regulation. So I do not know 
even if Arkansas or any of the other states have a regulation--
--
    Mr. Critz. Or if they will be----
    Mr. Vester [continuing]. That is approved by EPA.
    Mr. Critz. Yeah.
    Mr. Vester. So, you know, the original draft that EPA--
draft that EPA came out with, you know, there was talk that you 
had to apply for a permit in the winter for the coming year 
listing all the pesticides you were going to use in that coming 
year. You do not know. You do not know when you are going to 
use them. Weather and time of the year dictate what we do as 
farmers. You know, when the crop is planted. We cannot--we do 
not have a business plan that says today we are doing this and 
tomorrow we are doing that.
    Mr. Critz. Right. Right.
    Mr. Vester. You know, like I said, EPA is regulating 
something they do not know anything about.
    Mr. Critz. Yeah. Well, I think we had it in Pennsylvania 
this last year is we had--it was wet early, then it got hot, 
and then it got wet late again so it changes. So I see what you 
are saying.
    I have one last quick question. Well, I do not know if it 
is going to be quick. You know me.
    But Carl, you had mentioned about EPA, and this is another 
issue I am trying to get my hands around, EPA issues a rule, 
gets sued, and then settles and that is now new regulations are 
created. Can you walk through that a little and maybe give a 
specific example?
    Mr. Shaffer. Yeah. I can give you a very specific example 
of it. And that is the Chesapeake Bay TMDL.
    Mr. Critz. Okay.
    Mr. Shaffer. The Chesapeake Bay Foundation filed a lawsuit 
against EPA saying they were not acting in a timely--they 
needed to act in a more timely manner and put more enforcement 
into cleaning up the Chesapeake Bay. Instead of even leaving 
that and go to court and have a court decide whether that 
lawsuit had validity or not, EPA settled and said okay, we will 
settle. Now it is our responsibility. We have to come out with 
a whole new set of rules to meet the challenge of the 
settlement of the lawsuit. So the Chesapeake Bay TMDL came out 
of just one environmental group suing EPA and EPA not even 
defending themselves for any practical purpose. They just 
agreed to settle and put out a whole new set of rules. This is 
happening time and time again. And unfortunately, as I said in 
my testimony, you are the entity that should be setting rules 
and regulations, Congress, and instead EPA is doing this by 
settlement agreements. And a lot of different issues are being 
promulgated this way.
    Mr. Critz. Thanks, Carl. I yield back. Thank you, Mr. 
Chairman.
    Chairman Tipton. Thank you. I recognize Mr. Barletta for 
questions.
    Mr. Barletta. Thank you, Mr. Chairman.
    The word I heard most here this morning was the word 
``common sense.'' And I could tell you in my short time here in 
Washington, the 10 months I have been here, I found that common 
sense is not as common here as it is in Pennsylvania, Illinois, 
Arkansas, or Colorado.
    I think we all agree that farmers have a vested interest in 
conserving and protecting their land and the agricultural 
sector is vital to our nation's economy. And also, you know, 
people may not realize it is vital to our country's national 
security. It is very, very important that America continues to 
produce its own food. And I am very concerned about that. Some 
of the regulations that you have to live under, other countries 
are not. And we are putting America's farmers at a disadvantage 
as we have done in manufacturing and then we wonder why we do 
not have any more manufacturing in America. We are doing the 
same thing in farming. And I believe it is a national security 
issue.
    But assuming this is true, Mr. Nelson, how can the 
Environmental Protection Agency justify--how can they justify 
imposing these burdensome regulations on American farmers?
    Mr. Nelson. Well, that is the question we have been asking 
ourselves as producers because when you start looking at their 
proposed regulations, whether it is in clean air or clean 
water. And I think the frustrating part that we see on behalf 
of the farm community is we are not given any credit for the 
environmental practices that we have in place. Case in point, 
over the last two decades we have reduced the use of pesticides 
almost 30 percent through biotechnology that we use in our 
crops. Secondly, we probably use 25 percent less fertilizers 
over the last two decades. We plant filter strips as was 
alluded to earlier to make the water cleaner. In Illinois, we 
have private pesticide applicator training. Every three years 
you go through a training exercise and have to be licensed. So 
I think the frustration that we have is we have a lot to offer 
as an ag community to put on the table of practices that we do 
have in place, which are best management practices but we are 
not given any credit for that. And I think that is the 
frustration that we see in the justification of the EPA.
    I use a recent court ruling in the Fifth Circuit as it 
relates to livestock production. It said if you do not 
discharge, you do not need an NPDES permit. The EPA did not 
appeal that, but yet at the present time in the state of 
Illinois and other states, we are facing the fact that the 
state or the regional EPA offices are saying, well, that was 
the case in the Fifth Circuit but we are still wanting 
producers in the case of livestock to obtain permits. And we do 
not necessarily agree with the definition of a discharge. So I 
think we are wrestling right now on that segment the same as we 
are with this general permit of which we tried to have input 
into the drafting of that, and the final stages of that permit 
look far different than they did in the drafting phase. So it 
is a very difficult question to answer but in the eyes of 
agriculture we have a lot of question marks of how they can 
justify doing this and taking what we said today and the 
production side of what we do best and producing a safe, 
abundant food supply and trying to hinder that.
    Mr. Barletta. Mr. Shaffer, I agree with you. You are right. 
The regulations of what we are seeing in Pennsylvania, folks 
around the country should be paying attention because it will 
be coming soon to your neighborhood. As you know, much of our 
congressional district, including your hometown of 
Mifflinville, is located in the Chesapeake Bay watershed. I 
know that you, like many other farmers in Pennsylvania, are 
concerned about EPA's regulatory approach in the Bay watershed. 
Yet the EPA has been assuring congressional panels that states 
will have control over implementing water quality programs in 
the Chesapeake Bay region. Has this been your experience?
    Mr. Shaffer. Absolutely not. The Clean Water Act, in my 
opinion and our opinion, simply says that the state should have 
control over their waters. And in implementing the TMDLs the 
state of Pennsylvania, all the states in the watershed, are 
required to do water implementation plans. So Pennsylvania 
started working with the stakeholders, who are farmers and 
other people, working to develop its first phase of the 
watershed implementation plan. It had questions. It reached out 
to EPA and said, well, is this part of the water plan going to 
be acceptable or not? And EPA's answer was submit the plan, and 
we will tell you if it is acceptable. They developed a plan, 
submitted it. It was immediately rejected and EPA said it did 
not have enough backstops, enough enforcement. So how do you 
say the states are controlling their own waters when the EPA is 
rejecting the plans and dictating what they have to do?
    So I am very concerned about that. And, you know, every 
state is different. Topography is different. Weather conditions 
might be different. So we go back to common sense. It just 
makes common sense that each state is in a better situation to 
develop a plan to protect the waters in its state. A one size 
fits all plan just will not work.
    Mr. Barletta. Mr. Shaffer, common sense is a dirty word 
around here. Thank you, Mr. Chairman.
    Chairman Tipton. Thank you, Mr. Barletta.
    You know, listening to you, and Mr. Felix, I hope you do 
not mind if I share a little bit of a conversation you and I 
had had before this hearing.
    Mr. Felix. Go ahead.
    Chairman Tipton. I would like to preface this, you know, if 
you look back at the census in this country--I believe it was 
1950-1960--we had 130 million Americans in this country. Our 
latest census shows we have over 300 million Americans. That 
population growth is happening worldwide. Mr. Felix, you shared 
with me in our part of the country, on the west slope of 
Colorado, that you are seeing fields now that used to grow 
crops growing subdivisions.
    Mr. Felix. The last crop, asphalt and shingles.
    Chairman Tipton. Asphalt and shingles. And is the 
experience--we have the rice community represented here, a 
couple of Farm Bureaus, are you seeing more and more farmers 
simply throwing up their hands and saying we cannot comply. We 
do not know what the regulations are going to be. It is not 
worth the cost. It is not worth $37,500 per day in fines just 
to try and conduct business and to grow food for the American 
people? Are you seeing more farmers just reluctantly saying we 
have had enough?
    Mr. Felix. I will say emphatically on the livestock side 
they are just frustrated. I just talked about with the 
definition of a discharge, we think of that as if something 
were to happen in a lagoon which stores the manure from 
livestock--would break if something like that would happen. We 
consider that a discharge. EPA is considering a discharge a 
rain event that comes off of a roof that hits a ventilation fan 
that might end up in the grass as a discharge. That is how 
farfetched this is getting. So the livestock community is very 
frustrated. And I am seeing people that are middle aged or 
approaching, you know, the latter part of their life. They are 
just throwing the towel in and saying forget it.
    I think on the crop production side we alluded to this 
earlier with your sarcasm, Mr. Congressman, but we are getting 
to a point and it is not a laughable matter that farming 
operations are going to have to have a regulatory specialist to 
keep up with regulations to keep their farming operations in 
compliance. And as I said before, the ironic thing is today an 
American farmer feeds themselves and about 155 other people. If 
we continue down this pathway, you can look out 10 years from 
now where that number might be half or even a third of that if 
we keep hamstringing what we do best. And by the same token, I 
think we consider ourselves to be the true environmentalists 
who do protect the water that we drink in the farming 
operations that we are a part of and the air that we breathe.
    Chairman Tipton. Thank you. Anyone else care to comment on 
that?
    Mr. Vester. Go ahead.
    Mr. Felix. The thought that comes to mind about this whole 
thing is--and you can take it to the economy even--is that 
there is no new wealth in this country except for what we grow, 
what we mine, what we fish out of the oceans or the rivers, and 
cut from the forests. Everything else is a turnaround, a reuse 
over and over and over. And without that new wealth from this 
country, we are going down. You have to have new wealth. It 
does not come from anywhere else. It is either the sun or the 
earth. That is it.
    Chairman Tipton. All right. Thank you. Mr. Vester.
    Mr. Vester. You know, to be--I will use a term I do not 
like--but sustainable rice producer in this day and time--I do 
not agree with that terminology although I do serve on a 
committee that we discuss that. But a rice farm in our area, to 
be sustainable as a family farm, you need to be farming a 
minimum of 1,500 acres in a crop rotation, which normally there 
is rice, soybeans, and wheat, or rice, soybeans, and corn. That 
steadily grows and grows. Farms have to be larger because of 
the economy of size. No matter how much commodity prices climb, 
no matter how much you get for a crop each year, the cost of 
producing that crop comes up right under it. It is a margin 
about this wide. I tell people that farmers are people who 
faithfully every year go to the bank and get a crop loan to 
produce your crop and they mortgage everything they have--their 
equipment, their crop they are going to grow, the crop they 
have not sold all of yet, their wife and children, if the bank 
would accept it as collateral, with the hope and a prayer that 
by fall when that crop is harvested that the commodity prices 
will be high enough and the yields will be good enough, which 
in reality we do not control. A lot of that is controlled by 
weather conditions. And they have enough return to pay off that 
crop note and enough money left over till the next crop loan is 
funded. That is basically what we do because the margins are 
that thin. Some people are very successful because maybe it has 
been generations of families buying land but the average 
farmer, that is what they look at each and every year. With new 
regulation, new cost, new things they face each and every day, 
it is very discouraging.
    You are not finding--I have to say in our area we have got 
a lot of young farmers coming in right now who are following 
dads in and dads are retiring. But people get very frustrated. 
It gets very difficult. Costs are enormous. Returns are low. 
And you know, I sit on a bank board and if you look at most 
crop loans that we look at, the margin in that crop loan, 
whether they are a corn farmer or a rice farmer, is equivalent 
to that deficiency payment they received. That is the margin. 
That is what is left over. Okay? And some years it is not that. 
This year it will not be that because costs were so high. We 
were the same way in Arkansas. We had a flood period. We were 
dry first. We had floods. We had land that was flooded and 
could not be planted until late and they lost their crop due to 
drought. I mean, that is what you face in agriculture. And when 
the young people can go to town and work 40 hours a week and 
make more money than mom and dad, why would they stay there? I 
mean, that is what you look at.
    You know, years and years ago it was said if farmers took 
everything they had invested if they owned land and put it in a 
savings account at 2 percent interest, they would make more 
money than they did farming. And that was true. You know, we 
are kind of--maybe we are not very intelligent. I do not know. 
But we love what we do. It is a great joy. I have a grandson 
that is 12 years old and that is all he wants to be. And that 
is wonderful. But Mr. Felix is correct. We are facing, I think 
a frightening thing.
    I lived through the '70s when they told us to plant fence 
row to fence row. We were going to run out of food and we did 
not because some things happened. But are those things going to 
happen this time? Are we running to the end of the line? You 
know, I really question that. The economic conditions in the 
United States right now are going to be devastating to 
agriculture. We are down--right now we are down to seven major 
seed companies in the United States. Two of those are 
considering selling out. Of those seven seed companies, they 
own the five chemical--major chemical companies in this 
country. Okay? They have united. All of those seed companies 
own a chemical company except for one or two. We are down to 
two major fertilizer providers nationally in the world. When 
the products you need are that closely held, do you know what 
happens to the cost of them? They go out the ceiling.
    In reality, I think financing is shrinking. Bank of 
Cooperatives, which loans money to co-ops and big farming 
operations around the country, in several areas have combined 
with Farm Credit. Even financing for agriculture is becoming 
closely held. I really feel personally that we are almost 
entering a period of feudalism where the margin in agriculture 
is so small that the farmer is going to have so much wrapped up 
in fertilizer, seed, and chemicals, and paying for regulatory 
issues that if he stumbles and has a bad crop he will never be 
able to climb out of the hole and put those seed companies--and 
they will finally merge seed, fertilizer, chemical, and finance 
altogether. They will say that is all right. You can keep 
farming your farm. You will not own anything but we will pay 
you a salary. That is where we are headed in agriculture in 
this country right now. I think we are very close to it. Do you 
not?
    Chairman Tipton. Thank you.
    Mr. Felix. I think that is where we are headed, a system of 
feudalism. And, you know, we need to do something for the 
agricultural community, to slow this down and get it back to 
where we are a production agriculture feeding the nation and 
the world.
    Chairman Tipton. Mr. Shaffer, any comment?
    Mr. Shaffer. Just to follow up on your statement of farmers 
getting disgusted and giving up frustrated. I am as concerned 
about our young people. Where is the next generation of 
agriculture going to come from if they are discouraged from 
even entering into it? And where are the next food providers in 
this country going to come from if that frustration is carried 
to the younger generation?
    Chairman Tipton. Thank you. Congressman Critz, do you have 
another question?
    Mr. Critz. Well, I had another question but, you know, one 
quick story is after the tsunami in Japan, you know, a lot of 
the farmers, because of the nuclear issues, had to move away. 
And I will never forget they were interviewing one rice farmer 
in Japan. He said, you know, he did not know what he was going 
to do because he had been farming--his family had been farming 
that land for 600 years. And the farmers that I encounter in my 
district, that is the stock we are talking about. These are 
people who want to do this and their families want to do this 
for a long, long time. And it is up to us to try and help. And 
that is, of course, what this is all about, is trying to be in 
a position where we can offer some help. You know, obviously, 
we are never going to solve every problem but we are on your 
side and we are trying to do our best. And we try to listen and 
learn to come up with solutions.
    But the one question I did have is that when we are talking 
about this, you know, I am going to go back to our pilot 
program in Pennsylvania, the Chesapeake Bay issues, if you 
could look back 20-30 years and compare it to today on the 
environmental impact that farmers are having at this point, 
what are the things that farming has done over these last 
years? And a lot of times I know you can share statistics with 
us that show that, you know, the work that has been done or the 
work that is being done on farms now is so much more 
environmentally friendly than it was in the past because you 
have implemented a lot of things. And I think, Mr. Shaffer, 
Carl, you had mentioned in your testimony or in some of the 
information that part of your heartburn with EPA right now is 
that they do not give credit to farms that are doing clean up 
already.
    So if anyone or everyone, anyone who wants to comment on 
the difference now between--between now and if you want to go 
back 10, if you want to go back 50 years--what the difference 
is that you are seeing on farms and how you really are the 
stewards of the land. And the reason I ask this is because I 
want to make sure it is in the record so everyone gets to hear 
it.
    Mr. Shaffer. Well, Congressman, and Congressman Barletta, 
as you know exactly where I live, I was born and raised along 
the shore of the Susquehanna River. And when I was a child I 
would go down to the river. The rocks along the bank were 
fluorescent orange. There was all kinds of things floating in 
that river and there were no fish. Today it is one of the best 
smallmouth bass fisheries in the world. The waters have been 
cleaned up.
    My father used to raise beef cattle and I can remember on 
hot days those cattle standing in the creek to keep cool. Now, 
my father was not a bad man. He just did not know that was an 
opportunity for pollution. We have learned that. We now have 
stream bank fencing. We have adopted so many practices over the 
last 40-50 years--no-till farming, cover crops--it goes on and 
on with best management practices. We have done this 
voluntarily without EPA's foot on our head telling us to do 
this. And we have been able to do it through the development of 
technology and new ways of farming that are more 
environmentally friendly and we have adopted it on our own. And 
that is why you can go to EPA's numbers of how much nitrogen 
reduction there has been, how much phosphorous reduction there 
has been, and how much sediment reduction there has been. And 
it proves it.
    And we still, as you mentioned, I was in that Congressional 
hearing two weeks ago. The administration official from the EPA 
stood there and said this is like trying to run a 10K race and 
we are still standing at the starting line. Now, after all we 
have accomplished, for them to say we are still standing at the 
starting line, you talk about frustration. There is not any 
bigger frustration than comments like that.
    Mr. Vester. In the rice industry, compared to 20 years ago, 
two of the major input costs in rice have always been nitrogen 
fertilizer and water. We use half the water we used to use 
because of developments of seed that mature more quickly, 
because of practices how we do not lose water. It is a precious 
item to us. Farmers conserve their water faithfully because 
they have to have it. I would say that nitrogen use has been 
cut by 40 percent and they are doing experiments now and 
testing now not run by EPA, run by the Extension Service in our 
state of how we can use less fertilizer yet.
    We have made huge inroads. Nearly all farmers plant grass 
barriers around their field to keep pollution down, to keep 
erosion down. Farmers know that their land and what they do is 
precious to them. It is no different than the man that has a 
lockbox full of cash money. He is not going to leave the lid 
open and let the money come out. That is our livelihood. That 
is what we pass on to our children and to the next generation. 
That is the way we make our living. We take care of what we 
have.
    As Mr. Shaffer says, you know, it is disheartening to hear 
people say, well, you are just not doing enough. You know, what 
you have done, well, anybody would have known to do that. And 
there is an opinion in U.S. EPA that we are ignorant, straw 
chewing people who wear overalls and do not have an education. 
That is what comes across to me.
    Mr. Critz. And it is interesting because I have yet to meet 
a farmer that is not highly educated and can talk about 
agricultural science, pesticide science. I mean, all these 
things. It is amazing to me. It was actually an education for 
me because, you know, I guess growing up you read books about 
farming and it is just you work with your hands, people work 
with their backs, but the education required is unbelievable.
    And to your point, you are doing things so they have to be 
smarter. The next generation has to be smarter because they are 
innovating and they are doing good things. I did not mean to 
interrupt but I am amazed at the level of education farmers 
have.
    Mr. Felix. I would like to go back to what we were talking 
about the young farmers and where they are coming from. Our 
farmers have implemented the very similar things that these 
other gentlemen have related to, the no-till and the irrigation 
practices. With the dust controls, we do not plow everything 
anymore. All those things are being done every day in the 
interest of not only the environment but also more efficiency 
and better crops.
    But back to the young people. There is a tremendous 
resource there that if we lose it, I do not know where you are 
going to get it back. Because if you think about this green 
thumb that comes along with a grower or aerial applicator or 
somebody that understands the cropping system and how to get it 
done, how to do a minimum amount of applications to get the 
maximum out of your pesticides, you cannot learn that in 
school. That is something that is passed on from father to son 
to son to son. And if you lose that, and I can attest to this 
because I have got young farmers out there that came from the 
city and they want to farm. But I can tell you what, they have 
a heck of a time. And we offer them a lot of help, but even so 
they make bad decisions and they do stupid things. And it is 
really difficult to get them up to speed so that they can farm. 
And most of them do not make it and that is what I see in our 
area.
    Mr. Nelson. And I think a lot has been said but, you know, 
the one comment that I guess I failed to bring up through this 
hearing and the frustration the farmers have with these 
proposed rules is we cannot pass it on. I mean, we are a price 
taker, not a price maker. And I think that that is a very 
important point that I think this agency does not understand 
from time to time.
    But getting back to your question, 30-some years ago I 
graduated from college and, you know, at that time the push was 
to go towards no-till. And I remember coming home to farm being 
the only one out of the six in our family that came home to 
farm with dad. And the first year I said, Dad, we need to rent 
a drill and we are going to no-till our soybeans. And I thought 
he was going to kill me because he said, there you are, the 
college-educated kid that does not get it. And at that time no-
till was not very common. But you know something? That year we 
had above normal rainfall, the soil did not move, the trash was 
there to protect it, and we looked at the T By 2000 campaign 
that went on in Illinois in protecting our soils and our 
fragile lands.
    We looked at the conservation programs that we put in 
place. The water is cleaner. The filter strips have protected 
our streams and our rivers. And in crop production today I make 
the comment we use prescription farming. We farm by the square 
inch, through global positioning. We have auto steer 
technology. We do not apply pesticides and fertilizers that we 
do not have to because it impacts our bottom-line, and 
secondly, we are environmentally friendly in what we do.
    And I think shifting gears to the livestock side, being a 
livestock producer, 30 years ago we raised a lot of our animals 
in outside facilities. We brought those animals into controlled 
environments where they live in sheds that are cooled and 
heated during the winter time. A lot of places better than 
humans live. And we raise a type of meat today that is rivaled 
around the world. And yet we also take credit. Thirty years ago 
we did not think of manure as a bonus to a farming operation. 
Now we use it in our nutrient management plans that we put in 
place as practices.
    But I guess my closing comment is, you know, a lot has 
changed in 30 years and it has all been for the good. But yet 
we do not get credit for that it has been alluded to.
    And I will use the analogy. I have a son who would like to 
push dad out of the farming operation today and take it over 
but he sees the storm clouds on the horizon of the EPA pushing 
some of these rules and he is skeptical about whether or not he 
wants to be a part of this business. And as Congressmen, as 
members involved in agriculture, we have to get it right and 
get this thing under control and get back to the common sense 
that really, you know, needs to be injected into this debate.
    Chairman Tipton. Well, thank you, gentlemen. I appreciate 
your comments on that and fellow members of the Committee. 
Sitting on the Small Business Committee it is an interesting 
observation. All of our small businesses, be it farming, 
ranching, small retailers, small production companies across 
this country. As I have traveled throughout my third 
congressional district to Colorado, 54,000-plus square miles, 
at every meeting that we were at, within no more than 10 
minutes the EPA comes up. The overreach of this body is 
enormous and I think, Mr. Nelson, to your point, particularly 
with our farm and ranch community, something that we cannot 
ever fail to underscore for the American public is the farmer, 
the rancher does not set their price; they pay the price, not 
only in terms of the sweat off of their brow but out of the 
limited resources that they have. And when we have a moving 
target, and as Mr. Shaffer was noting, that the EPA views us 
still at the starting line.
    We have seen tremendous improvement because the best 
custodians of our land is truly our farm and ranch community. 
And I want you to know on my behalf, and I know on Congressman 
Critz's behalf and Congressman Barletta as well, this nation 
owes a deep debt of gratitude to that farm and ranch community 
and what it is able to provide. And believe me, we will take 
your admonitions, particularly with the uncertainty that we are 
seeing out of the EPA greatly frustrating when we ask a state 
to be able to put forward a plan and then the EPA sits in 
judgment it is not good enough without guidance. That is 
unacceptable.
    To my ear in particular, I would like to let you know that 
we have a lot of frustration on both sides of the aisle when it 
comes to the regulatory bodies right now that are putting out 
regulations under the legislative mandate of Congress but 
exceeding that mandate. And there has to be a good solution, a 
good piece of legislation, and a number of us are working on 
that simply to be able to address getting it back to that 
authoritative body. The EPA should not be writing legislation; 
it should be fulfilling the legislation that Congress had 
entitled it to be able to do and it is overreached.
    So thank you, gentlemen, all for being here. I know that it 
is no small effort to be able to come here and to be able to 
participate in these. So as the Subcommittee continues to focus 
on burdensome regulations that affect our farmers and ranchers 
and small businesses, I would again like to be able to 
reiterate how important it is to provide regulatory certainty 
in relation to our nation's job creators.
    [Whereupon, at 11:36 a.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T2378A.001
    
    [GRAPHIC] [TIFF OMITTED] T2378A.002
    
    [GRAPHIC] [TIFF OMITTED] T2378A.003
    
    [GRAPHIC] [TIFF OMITTED] T2378A.004
    
    [GRAPHIC] [TIFF OMITTED] T2378A.005
    
    [GRAPHIC] [TIFF OMITTED] T2378A.006
    
    [GRAPHIC] [TIFF OMITTED] T2378A.007
    
    [GRAPHIC] [TIFF OMITTED] T2378A.008
    
    [GRAPHIC] [TIFF OMITTED] T2378A.009
    
    [GRAPHIC] [TIFF OMITTED] T2378A.010
    
    [GRAPHIC] [TIFF OMITTED] T2378A.011
    
    [GRAPHIC] [TIFF OMITTED] T2378A.012
    
    [GRAPHIC] [TIFF OMITTED] T2378A.013
    
    [GRAPHIC] [TIFF OMITTED] T2378A.014
    
    [GRAPHIC] [TIFF OMITTED] T2378A.015
    
    [GRAPHIC] [TIFF OMITTED] T2378A.016
    
    [GRAPHIC] [TIFF OMITTED] T2378A.017
    
    [GRAPHIC] [TIFF OMITTED] T2378A.018
    
    [GRAPHIC] [TIFF OMITTED] T2378A.019
    
    [GRAPHIC] [TIFF OMITTED] T2378A.020
    
    [GRAPHIC] [TIFF OMITTED] T2378A.021
    
    [GRAPHIC] [TIFF OMITTED] T2378A.022
    
    [GRAPHIC] [TIFF OMITTED] T2378A.023
    
    [GRAPHIC] [TIFF OMITTED] T2378A.024
    
    [GRAPHIC] [TIFF OMITTED] T2378A.025
    
    [GRAPHIC] [TIFF OMITTED] T2378A.026
    
    [GRAPHIC] [TIFF OMITTED] T2378A.027
    
    [GRAPHIC] [TIFF OMITTED] T2378A.028
    
    [GRAPHIC] [TIFF OMITTED] T2378A.029
    
    [GRAPHIC] [TIFF OMITTED] T2378A.030
    
    [GRAPHIC] [TIFF OMITTED] T2378A.031
    
    [GRAPHIC] [TIFF OMITTED] T2378A.032
    
    [GRAPHIC] [TIFF OMITTED] T2378A.033
    
    [GRAPHIC] [TIFF OMITTED] T2378A.034
    
    [GRAPHIC] [TIFF OMITTED] T2378A.035
    
    [GRAPHIC] [TIFF OMITTED] T2378A.036
    
    [GRAPHIC] [TIFF OMITTED] T2378A.037
    
    [GRAPHIC] [TIFF OMITTED] T2378A.038
    
    [GRAPHIC] [TIFF OMITTED] T2378A.039
    
    [GRAPHIC] [TIFF OMITTED] T2378A.040
    
    [GRAPHIC] [TIFF OMITTED] T2378A.041
    
    [GRAPHIC] [TIFF OMITTED] T2378A.042
    
    [GRAPHIC] [TIFF OMITTED] T2378A.043
    
    [GRAPHIC] [TIFF OMITTED] T2378A.044
    
    [GRAPHIC] [TIFF OMITTED] T2378A.045
    
    [GRAPHIC] [TIFF OMITTED] T2378A.046
    
    [GRAPHIC] [TIFF OMITTED] T2378A.047
    
    [GRAPHIC] [TIFF OMITTED] T2378A.048
    
    [GRAPHIC] [TIFF OMITTED] T2378A.049
    
    [GRAPHIC] [TIFF OMITTED] T2378A.050
    
    [GRAPHIC] [TIFF OMITTED] T2378A.051
    
    [GRAPHIC] [TIFF OMITTED] T2378A.052
    
    [GRAPHIC] [TIFF OMITTED] T2378A.053
    
    [GRAPHIC] [TIFF OMITTED] T2378A.054
    
    [GRAPHIC] [TIFF OMITTED] T2378A.055
    
    [GRAPHIC] [TIFF OMITTED] T2378A.056
    
    [GRAPHIC] [TIFF OMITTED] T2378A.057
    
    [GRAPHIC] [TIFF OMITTED] T2378A.058
    
    [GRAPHIC] [TIFF OMITTED] T2378A.059
    
    [GRAPHIC] [TIFF OMITTED] T2378A.060
    
    [GRAPHIC] [TIFF OMITTED] T2378A.061
    
    [GRAPHIC] [TIFF OMITTED] T2378A.062
    
    [GRAPHIC] [TIFF OMITTED] T2378A.063
    
    [GRAPHIC] [TIFF OMITTED] T2378A.064
    
    [GRAPHIC] [TIFF OMITTED] T2378A.065
    
    [GRAPHIC] [TIFF OMITTED] T2378A.066
    
    [GRAPHIC] [TIFF OMITTED] T2378A.067
    
    [GRAPHIC] [TIFF OMITTED] T2378A.068
    
    [GRAPHIC] [TIFF OMITTED] T2378A.069
    
    [GRAPHIC] [TIFF OMITTED] T2378A.070
    
    [GRAPHIC] [TIFF OMITTED] T2378A.071
    
    [GRAPHIC] [TIFF OMITTED] T2378A.072
    
    [GRAPHIC] [TIFF OMITTED] T2378A.073
    
    [GRAPHIC] [TIFF OMITTED] T2378A.074
    
    [GRAPHIC] [TIFF OMITTED] T2378A.075
    
    [GRAPHIC] [TIFF OMITTED] T2378A.076
    
    [GRAPHIC] [TIFF OMITTED] T2378A.077
    
    [GRAPHIC] [TIFF OMITTED] T2378A.078
    
    [GRAPHIC] [TIFF OMITTED] T2378A.079
    
    [GRAPHIC] [TIFF OMITTED] T2378A.080
    
    [GRAPHIC] [TIFF OMITTED] T2378A.081
    
    [GRAPHIC] [TIFF OMITTED] T2378A.082
    
    [GRAPHIC] [TIFF OMITTED] T2378A.083
    
    [GRAPHIC] [TIFF OMITTED] T2378A.084
    
    [GRAPHIC] [TIFF OMITTED] T2378A.085
    
    [GRAPHIC] [TIFF OMITTED] T2378A.086
    
    [GRAPHIC] [TIFF OMITTED] T2378A.087
    
    [GRAPHIC] [TIFF OMITTED] T2378A.088
    
    [GRAPHIC] [TIFF OMITTED] T2378A.089
    
    [GRAPHIC] [TIFF OMITTED] T2378A.090
    
    [GRAPHIC] [TIFF OMITTED] T2378A.091
    
    [GRAPHIC] [TIFF OMITTED] T2378A.092
    
    [GRAPHIC] [TIFF OMITTED] T2378A.093
    
    [GRAPHIC] [TIFF OMITTED] T2378A.094
    
    [GRAPHIC] [TIFF OMITTED] T2378A.095
    
    [GRAPHIC] [TIFF OMITTED] T2378A.096
    
    [GRAPHIC] [TIFF OMITTED] T2378A.097
    
    [GRAPHIC] [TIFF OMITTED] T2378A.098
    
    [GRAPHIC] [TIFF OMITTED] T2378A.099
    
    [GRAPHIC] [TIFF OMITTED] T2378A.100
    
    [GRAPHIC] [TIFF OMITTED] T2378A.101
    
    [GRAPHIC] [TIFF OMITTED] T2378A.102
    
    [GRAPHIC] [TIFF OMITTED] T2378A.103
    
    [GRAPHIC] [TIFF OMITTED] T2378A.104
    
    [GRAPHIC] [TIFF OMITTED] T2378A.105
    
    [GRAPHIC] [TIFF OMITTED] T2378A.106
    
    [GRAPHIC] [TIFF OMITTED] T2378A.107
    
    [GRAPHIC] [TIFF OMITTED] T2378A.108
    
    [GRAPHIC] [TIFF OMITTED] T2378A.109
    
    [GRAPHIC] [TIFF OMITTED] T2378A.110
    
    [GRAPHIC] [TIFF OMITTED] T2378A.111
    
    [GRAPHIC] [TIFF OMITTED] T2378A.112
    
    [GRAPHIC] [TIFF OMITTED] T2378A.113
    
    [GRAPHIC] [TIFF OMITTED] T2378A.114
    
    [GRAPHIC] [TIFF OMITTED] T2378A.115
    
    [GRAPHIC] [TIFF OMITTED] T2378A.116
    
    [GRAPHIC] [TIFF OMITTED] T2378A.117
    
    [GRAPHIC] [TIFF OMITTED] T2378A.118
    
    [GRAPHIC] [TIFF OMITTED] T2378A.119
    
    [GRAPHIC] [TIFF OMITTED] T2378A.120
    
    [GRAPHIC] [TIFF OMITTED] T2378A.121
    
    [GRAPHIC] [TIFF OMITTED] T2378A.122
    
    [GRAPHIC] [TIFF OMITTED] T2378A.123
    
    [GRAPHIC] [TIFF OMITTED] T2378A.124
    
    [GRAPHIC] [TIFF OMITTED] T2378A.125
    
    [GRAPHIC] [TIFF OMITTED] T2378A.126
    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
